                                                                                                             December 31, 2013

The Honorable Rajiv Shah
  Administrator, USAID

Mr. William Hammink
  Mission Director to Afghanistan, USAID


Dear Administrator Shah and Director Hammink:

I am writing to alert you about the possible weaknesses in oversight provisions in a U.S Agency for
International Development (USAID) agreement for providing direct bilateral assistance funds to Da
Afghanistan Breshna Sherkat (DABS)—Afghanistan’s national power utility—for the installation of an
additional turbine at Kajaki Dam. 1 USAID Implementation Letter Number IL-56, dated April 22, 2013,
addresses the installation of Turbine Generator Unit 2 at the Kajaki Dam Hydropower Plant 2 and
includes oversight provisions detailing how direct bilateral assistance funds for this effort will be
monitored and evaluated. I am concerned that these oversight provisions are not as robust as they
should be, which could make these funds more vulnerable to waste, fraud, and abuse.

As of August 2013, USAID had obligated $338.3 million in direct bilateral assistance funds 3 to DABS
for two reconstruction projects – the Power Transmission Expansion and Connectivity (PTEC) project
and the Kajaki Dam turbine generator project. Of this amount, $75 million has been obligated to the
Kajaki Dam project. The PTEC project is intended to improve Afghanistan’s electrical transmission
system, while the Kajaki Dam project would increase power generation by installing an additional
turbine.

USAID has two separate agreements in place for the PTEC and the Kajaki Dam projects. While the
agreements for both projects have many of the same oversight provisions, we found that the Kajaki
Dam agreement has fewer oversight provisions than the PTEC agreement. The provisions in the PTEC
agreement but not in the Kajaki Dam agreement include:

       •    USAID review of key procurement actions. 4 Before taking a PTEC related procurement action,
            DABS must submit the solicitation document, prime contract, subcontract documents,



1Kajaki Dam has long been recognized as a potential source for sustainable and renewable power to southern Afghanistan. The
United States first began construction on the Kajaki Dam in the early 1950s to provide irrigation and electricity to this region. The
Kajaki Dam has been plagued by problems and neglect throughout its history, and despite using multiple contractors and
subcontractors, spending tens of millions of dollars, and losing scores of U.S. and coalition lives since 2001, it is still not complete.
2   Installation of Turbine Generator Unit 2 could bring as much as 18.5 megawatts of additional power to southern Afghanistan.
3 Direct bilateral assistance is when funds are transferred directly from the U.S. government to the Afghan government, without
intermediaries.
4USAID Implementation Letter Number IL-22-1 for the Power Transmission Expansion and Connectivity Project, p. 11, VI. USAID
Consent to Key PETC Procurement Actions, December 5, 2012.
          amendments, and change orders to USAID. USAID has the right to block any procurement
          action if it has concerns with any of these documents.

     •    USAID vetting of organizations and key individuals. 5 USAID reserves the right to vet
          organizations and key individuals of any organization that may receive USAID direct bilateral
          assistance funds. 6

     •    USAID access. 7 USAID and USAID’s quality assurance contractor are guaranteed reasonable
          access to all DABS facilities, equipment, and documents related to PTEC. This includes
          access to DABS employees, authorized representatives, and organizations and individuals
          hired to work on the PTEC project. 8

In my view, these additional oversight provisions are reasonable and could provide greater
safeguards for U.S. taxpayer funds provided by USAID if they were included in the Kajaki Dam
agreement. Furthermore, these additional oversight provisions would be helpful given security
concerns which limit access to this construction site. 9 More importantly, these oversight provisions
make sense given the potential importance of the Kajaki Dam to Afghanistan’s economic
development, the investment already made by the U.S. government, and the historical challenges
that have hindered the completion of this project by multiple contractors and subcontractors in the
past. Unless there are compelling reasons why these oversight provisions are not in the Kajaki Dam
agreement, I strongly suggest you incorporate them into that funding agreement.

Should you have any questions concerning this letter, please contact Mr. Jerry W. Clark, Acting
Director, Office of Special Projects, at (703)545-5965 or jerry.w.clark50.civ@mail.mil.

                                                                                Sincerely,



                                                                                John F. Sopko
                                                                                Special Inspector General
                                                                                  for Afghanistan Reconstruction




5USAID Implementation Letter Number IL-22-1 for the Power Transmission Expansion and Connectivity Project, p. 12, VII. USAID
Vetting of Organizations and Key Individuals, December 5, 2012.
6While the language does not specifically limit vetting to PTEC, its absence from the Kajaki Dam document could create confusion
among the parties as to USAID’s ability to enforce the provision for the Kajaki Dam project.
7USAID Implementation Letter Number IL-22-1 for the Power Transmission Expansion and Connectivity Project, pp. 9-10, III. PTEC
Project Completion Date, Estimated Budget and Expected Contributions of the Parties, D. The Grantee’s Expected Contribution,
December 5, 2012.
8 While access to documents, records, financial records, etc. are covered in all Kajaki Dam implementation letters, physical access
to sites, facilities, and equipment appear limited to the PTEC projects.
9SIGAR 14-4-SP/Oversight Bubble Inquiry, October 10, 2013 noted that oversight of reconstruction efforts may be further
degraded after 2014 for projects that fall outside “oversight access bubbles.” This could apply to the Kajaki Dam.




SIGAR Alert/Kajaki Dam Direct Assistance-Oversight Provisions                                                              Page 2
       USAID
       FROM THE AMERICAN PEOPLE




MEMO RAN DUM                                                                January 8. 20 14


TO:                John F. Sopko
                   Spec ial In spector General for
                   Afghani stan Reconstruction (S IGAR)                     /         ~

FROM:              Wi lliam Hammink. Mission            Director~~
SUBJECT:           Response Letter to SIGA R Alert Letter Regardi ng Oversight
                   Provisions for the Kajaki Unit 2 Turbine Installat ion Project

Th is letter is in response to the SIGAR Alert Letter issued on December 3 1. 20 13
regarding oversight provisions for the Kajak i Unit 2 Turbine Generator Installation
Project (aka Kajaki Dam Unit 2 Project1) . We value SIGAR ·s intention to accu rately
assess the oversight of this in vestm ent and provide the following observations.

In the Alert Letter. SIGAR states the on-budget Kajaki Dam Project has three
weaknesses related to USA ID agreement oversight provisions when contrasted with
the USA ID Power Transmission Expansion and Connectivity (PTEC) proj ect.
SIGA R high li ghts the three specifi c weaknesses:

              •    USA ID rev iew of key procurement actions.
              •    USAID vetti ng of organizati ons and key individuals. and
              •    USA ID access.

USA ID concurs with SIGA R" s request to incorporate conditionalities into the
agreements that govern the Kajak i Dam Unit 2 Project similar to those that gove rn the
USA ID PTEC project. As reflected below. the oversight provisions are already
embedded within existing Strategic Objecti ve Grant Agreement (SOAG) documents
and the DABS contract with the Kajak i Unit 2 Project contractor.

USAID Review of Kev Procurement Actions

USA ID Implementati on Letter (IL) Num ber IL-56 for the Installation ofTurbinc
Generator Unit 2 at Kajak i Dam Hydropower Plant references SOAG umber 306-
05-00 titled ·· USA ID Strategic Objective Grant Agreement for a Thriving Economy
Led by the Private Sector:· IL-56 (A ttachment I) is issued in accordance to SOAG
306-05-00 and is governed by its provisions.


1
  To cl arif~ SIG/\ R" s titl e. the ··Kajaki Dam Project."" US/\ ID support for this project docs not involve
structural construction. repairs or im prm cmcnts to the dam itself: instead. the project im oh cs
installati on of a hydropower turbine and appurtenances in the powerhouse at the Kajaki Dam site.
US A II) would prefer the project be referred to as the ··Kajaki Dam Un it 2 Turbine Generator
Instal lati on Project"· or ··Kajak i Unit 2 Project.""
                                                                                                         Page I
                                            Tel : 202·216·6288/ 0700- 108·001
U.S. Agency for International Development   Email: kabulusaidinformation@usaid.gov
Great Massoud Road                          http://afghanistan.usaid.gov
Kabul. Afghanistan
Under Annex 2 of the SOAG: Standard Provisions. Article C: Procurement
Provisions. Section C.3 Plans. Specifications and Contracts specifies that USA ID will
have authority to obtain documentation and to review key procurement actions.
Relevant items under this section state:

       (a) The Grantee will furnish to USAID upon preparation:

               (I) any plans, specifications, procurement or construction schedules,
                   contracts, or other documentation between the Grantee and third
                   parties, relating to goods or services to be financed under the
                   Agreement, including documentation relating to the
                   prequalification and selection of contractors and to the solicitation
                   of bids and proposals. Material modifications in such
                   documentation will likewise be furnished USAID on preparation;

       (b) Documents related to the prequalification of contractors, and to the
       solicitation of bids or proposals for goods and services financed under the
       Agreement will be approved by USAID in writing prior to their issuance, and
       their terms will be in United States standards and measurements;

       (c) Contracts and contractors financed under the Agreement for engineering
       and other professional services, for construction services, and for such other
       services, equipment, or materials as may be specified in Implementation
       Letters, will be approved by USAID in writing prior to execution of the
       contract. Material modifications in such contracts will also be approved in
       writing by USAID prior to execution.

The SOAG language above provides USAID with substantial control over
procurement activities conducted under the Kajaki Unit 2 Project by DABS and the
DABS contractor. including vetting of contractors.

To date, DABS has readily provided USAID with procurement documents related to
the Kajaki Unit 2 Project. Upon review. USAID has provided written consent to the
issuance of the contract to the contractor, who will act as the construction manager-at
risk (CMAR). USAID Implementation Letter IL-56-02 providing this consent is
attached (Attachment 2).

USAID Vetting of Organizations and Key Individuals

In addition to the above provisions in the USAID SOAG with the Government of the
Islamic Republic of Afghanistan (GIROA). several provisions are included in the
DABS contract with its contractor that USAID approved. Item 4 of Section 7,
Requirements for Provider of Funds in the Contract for Kajaki Unit 2 between DABS
and the Contractor states:

       USA ID shall have the right, but not the obligation, to obtain information and
       to review for security and compliance purposes all companies, organizations,
       and individuals involved in award of any subcontracts resulting from this
       contract. USAID may prohibit subcontract award based upon the information
       obtained and/or the results of such review.

                                                                                   Page 2
Based on this language. USAID has the ability to vet any and all entities that arc
proposed for the Kajaki Unit 2 Project by DABS or its Contractor.

It should also be noted that the Contractor selected under this contract by DABS was
vetted through the USAID vetting unit prior to award. The USAID vetting
determination of the DABS contractor. GFA Consulting Limited, for this assistance is
attached (Attachment 3).

USAID Access

Regarding USAID access to DABS on-budget implementation of the Kajaki Unit 2
Project, Section G Item 7 ofthe Kajaki Unit 2, IL-56 addresses SIGAR's access issue
as follows:

          Monitoring and Evaluation: Due diligence reviews of the Kajaki Unit 2 project
          through program monitoring and evaluation is fundamental to reporting on
          progress and the quality of the work performed. USAID, through its staff or
          through contracts with third parties, will provide monitoring and evaluation
          support services for the Kajaki Unit 2 Project. Pursuant to Section B.5
          (Reports and Information, Agreement Books and Records, Audits and
          Inspections) of Annex 2 (Standard Provisions) of the Agreement, the Grantee
          will ensure that necessary access is provided to perform these functions.··

The SOAG's Annex 2: Standard Provisions, Article B: General Covenants, Section
B.5: Reports and Information, Agreement Books and Records, Audits, and
Inspections, item (i) states:

          Opportunity to Audit or Inspect: The Grantee shall afford authorized
          representatives of USA ID the opportunity at all reasonable times to audit or
          inspect activities financed under the Agreement, the utilization of goods and
          services financed by USAID, and books, records and other documents relating
          to the Agreement.

These provisions clearly show that USAID has the requisite access to the project for
appropriate oversight.


Attachments:
      1) Implementation Letter, IL-56
      2) Implementation Letter, IL-56-02
      3} Vetting Determination



cc:

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development


                                                                                     Pagc3
